<html>
<title> - OVERSIGHT OF BALLISTIC MISSILE DEFENSE (PART I): THREATS, REALITIES, AND TRADEOFFS</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]



 
 OVERSIGHT OF BALLISTIC MISSILE DEFENSE (PART I): THREATS, REALITIES, 
                             AND TRADEOFFS

=======================================================================



                                HEARING

                               before the

                   SUBCOMMITTEE ON NATIONAL SECURITY
                          AND FOREIGN AFFAIRS

                                 of the

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                             MARCH 5, 2008

                               __________

                           Serial No. 110-148

                               __________

Printed for the use of the Committee on Oversight and Government Reform


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html
                     http://www.oversight.house.gov



                  U.S. GOVERNMENT PRINTING OFFICE
48-657                    WASHINGTON : 2009
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing
Office  Internet: bookstore.gov Phone: toll free (866) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 20402-0001



              COMMITTEE ON OVERSIGHT AND GOVERNMENT REFORM

                 HENRY A. WAXMAN, California, Chairman
EDOLPHUS TOWNS, New York             TOM DAVIS, Virginia
PAUL E. KANJORSKI, Pennsylvania      DAN BURTON, Indiana
CAROLYN B. MALONEY, New York         CHRISTOPHER SHAYS, Connecticut
ELIJAH E. CUMMINGS, Maryland         JOHN M. McHUGH, New York
DENNIS J. KUCINICH, Ohio             JOHN L. MICA, Florida
DANNY K. DAVIS, Illinois             MARK E. SOUDER, Indiana
JOHN F. TIERNEY, Massachusetts       TODD RUSSELL PLATTS, Pennsylvania
WM. LACY CLAY, Missouri              CHRIS CANNON, Utah
DIANE E. WATSON, California          JOHN J. DUNCAN, Jr., Tennessee
STEPHEN F. LYNCH, Massachusetts      MICHAEL R. TURNER, Ohio
BRIAN HIGGINS, New York              DARRELL E. ISSA, California
JOHN A. YARMUTH, Kentucky            KENNY MARCHANT, Texas
BRUCE L. BRALEY, Iowa                LYNN A. WESTMORELAND, Georgia
ELEANOR HOLMES NORTON, District of   PATRICK T. McHENRY, North Carolina
    Columbia                         VIRGINIA FOXX, North Carolina
BETTY McCOLLUM, Minnesota            BRIAN P. BILBRAY, California
JIM COOPER, Tennessee                BILL SALI, Idaho
CHRIS VAN HOLLEN, Maryland           JIM JORDAN, Ohio
PAUL W. HODES, New Hampshire
CHRISTOPHER S. MURPHY, Connecticut
JOHN P. SARBANES, Maryland
PETER WELCH, Vermont
------ ------

                     Phil Schiliro, Chief of Staff
                      Phil Barnett, Staff Director
                       Earley Green, Chief Clerk
                  David Marin, Minority Staff Director

         Subcommittee on National Security and Foreign Affairs

                JOHN F. TIERNEY, Massachusetts, Chairman
CAROLYN B. MALONEY, New York         CHRISTOPHER SHAYS, Connecticut
STEPHEN F. LYNCH, Massachusetts      DAN BURTON, Indiana
BRIAN HIGGINS, New York              JOHN M. McHUGH, New York
                                     TODD RUSSELL PLATTS, Pennsylvania
                       Dave Turk, Staff Director


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on March 5, 2008....................................     1
Statement of:
    Cirincione, Joseph, president of the Ploughshares Fund; Baker 
      Spring, F.M. Kirby research fellow in national security 
      policy, the Heritage Foundation; Steven A. Hildreth, 
      Specialist in National Defense Foreign Affairs, Defense, 
      and Trade Division, Congressional Research Service; and 
      Stephen E. Flynn, senior fellow for national security 
      studies, Council on Foreign Relations......................    13
        Cirincione, Joseph.......................................    13
        Flynn, Stephen E.........................................    72
        Hildreth, Steven A.......................................    55
        Spring, Baker............................................    45
Letters, statements, etc., submitted for the record by:
    Cirincione, Joseph, president of the Ploughshares Fund, 
      prepared statement of......................................    16
    Flynn, Stephen E., senior fellow for national security 
      studies, Council on Foreign Relations, prepared statement 
      of.........................................................    75
    Hildreth, Steven A., Specialist in National Defense Foreign 
      Affairs, Defense, and Trade Division, Congressional 
      Research Service, prepared statement of....................    57
    Shays, Hon. Christopher, a Representative in Congress from 
      the State of Connecticut, prepared statement of............    10
    Spring, Baker, F.M. Kirby research fellow in national 
      security policy, the Heritage Foundation, prepared 
      statement of...............................................    47
    Tierney, Hon. John F., a Representative in Congress from the 
      State of Massachusetts, prepared statement of..............     4


 OVERSIGHT OF BALLISTIC MISSILE DEFENSE (PART I): THREATS, REALITIES, 
                             AND TRADEOFFS

                              ----------                              


                        WEDNESDAY, MARCH 5, 2008

                  House of Representatives,
     Subcommittee on National Security and Foreign 
                                           Affairs,
              Committee on Oversight and Government Reform,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10 a.m. in 
room 2154, Rayburn House Office Building, Hon. John Tierney 
(chairman of the subcommittee) presiding.
    Present: Representatives Tierney, Lynch, Yarmuth, Van 
Hollen, Welch, Shays, Burton, and Foxx.
    Staff present: Dave Turk, staff director; Andrew Su and 
Andy Wright, professional staff members; Davis Hake, clerk; Dan 
Hamilton, fellow; Christopher Bright and Todd Greenwood, 
minority professional staff members; Nick Palarino, minority 
senior investigator and policy advisor; Brian McNicoll, 
minority communications director; Benjamin Chance, minority 
clerk; and Mark Lavin, minority Army fellow.
    Mr. Tierney. A quorum being present, the Subcommittee on 
National Security and Foreign Affairs hearing entitled, 
``Oversight of Ballistic Missile Defense (Part 1): Threats, 
Realities, and Tradeoffs,'' will come to order.
    I ask unanimous consent that only the chairman and ranking 
member of the subcommittee be allowed to make opening 
statements. Without objection, so ordered.
    I ask unanimous consent that the hearing record be kept 
open for 5 business days so that all members of the 
subcommittee be allowed to submit a written statement for the 
record. Without objection, so ordered.
    Mr. Burton. Mr. Chairman.
    Mr. Tierney. Yes, Mr. Burton.
    Mr. Burton. I know that you are limiting the opening 
statements, but I am going to have to leave and I would like to 
say one or two words before I leave.
    Mr. Tierney. You are the ranking member right now, so you 
are going to be home free with that.
    Mr. Burton. OK. And if Mr. Shays gets here----
    Mr. Tierney. We will always make an allowance for Mr. 
Shays, as well.
    Mr. Burton. Thanks so much.
    Mr. Tierney. Thank you.
    Good morning and welcome to all of you.
    In a few short weeks--to be specific, on March 23rd--our 
country will mark the 25th anniversary of President Ronald 
Reagan's announcement to the Nation of his plan to shield our 
country from Soviet nuclear missiles. A lot has happened over 
those 25 years. Gone are the days when thousands of missiles 
from the Soviet Union were immediate threats. Current efforts, 
instead, focus on Iran and North Korea.
    In 2002, President Bush withdrew our country from the Anti-
Ballistic Missile Treaty and the Missile Defense Agency was 
created and exempted from normal acquisition, testing, and 
reporting requirements.
    This subcommittee wanted to take this opportunity to step 
back a bit to ask what we have achieved over the last 25 years 
and over $120 billion in investment. That is a conservative 
estimate by the Congressional Research Service. The 
Congressional Budget Office estimates that missile defense 
spending could double by 2013 to about $19 billion per year. 
More importantly, we want to find out where we should be going 
in the future.
    Specifically, the National Security and Foreign Affairs 
Subcommittee begins today a robust and concerted investigation 
into the rationale for missile defense; its cost, benefits, and 
technical obstacles; and the accountability, transparency, and 
testing regime of the Missile Defense Agency.
    We thought it vital to begin this investigation with a 
thorough examination of the potential threat our country faces 
from ballistic missiles and how that threat compares to other 
homeland security and weapons of mass destruction 
vulnerabilities. That will be primarily our focus here today, 
just that: what is the threat? And how does it compare to other 
homeland security and WMD vulnerabilities?
    After all, threat assessments, both with respect to 
ballistic missile threats, specifically, and comparing this 
threat across sectors, should be the logical foundation from 
which sound policy and resource judgments are made.
    Unfortunately, what we largely have to date is instead a 
series of intelligence estimates from the 1990's that factually 
have been tossed around like political footballs. What we seek 
to do with this first oversight hearing on missile defense is 
to have as robust and open a dialog as possible about the 
threats we face with top experts who have devoted decades of 
their lives to exploring these issues, and we are doing so 
drawing on information already in the public sphere.
    I think it is vital that, as much as possible, we have 
these debates and discussions in public so that the American 
people can get the most accurate picture possible about what 
our Government is up to, especially when you are talking about 
a program costing in excess of $10 billion a year.
    In the spirit of the robust debate to follow today, I want 
to throw out a few thoughts to get the ball rolling.
    First, what advice do our panelists have for navigating 
through the various intelligence estimates on intercontinental 
ballistic missile threats? I think we have to understand as we 
go through this hearing, too, that is what we are talking 
about: intercontinental ballistic missiles. We are not talking 
about theater defense systems, we are not talking about short 
range or medium range; we are focusing on that intercontinental 
ballistic missile threat and what has occurred in the real 
world since these earlier estimates took place.
    Do we need an updated national intelligence estimate? If 
so, how can we achieve one that is free of political pressure 
and interference?
    Second, when we are talking about a threat assessment, how 
important is it to differentiate between short- and medium-
range missiles versus intercontinental missiles?
    Third, I note with great interest a point that has been 
repeatedly stressed by our intelligence community over the 
years. In 2000, for example, Robert Walpole, who was then the 
CIA's point person on the issue, testified in Congress as 
follows: ``In fact, we project that in the coming years, U.S. 
territory is probably more likely to be attacked with weapons 
of mass destruction from non-missile delivery means--most 
likely from non-state entities--than by missiles, primarily 
because non-missile delivery means are less costly and more 
reliable and accurate. They can also be used without 
attribution.''
    A National Intelligence Council report in 2000 entitled, 
``Global Trends 2015,'' reiterated this point: ``Other means to 
deliver weapons of mass destruction against the United States 
will emerge, some cheaper and more reliable and accurate than 
early-generation ICBMs. The likelihood of an attack by these 
means is greater than that of a weapons of mass destruction 
attack with an intercontinental ballistic missile.''
    My question for our panel today is, if other methods to 
strike the United States are cheaper, more reliable, more 
accurate, and provide anonymity instead of ensuring a 
completely devastating counter-strike by our country, is it 
likely that our highest-priority threat against which we must 
protect ourselves will come from a country that wanted to cause 
us harm by focusing their limited resources and expertise on 
the very difficult process of building, testing, and deploying 
an intercontinental ballistic missile with a miniaturized 
weapon of mass destruction as a payload?
    Fourth, what are the opportunity costs of spending roughly 
$10 billion a year on missile defense when this amount of 
funding represents a third of the total budget for the 
Department of Homeland Security and is roughly equal to the 
total appropriation for the Department of State? To break it 
down further, we are annually spending billions more on missile 
defense than the entire budget for the Federal Emergency 
Management Agency, 20 more times than for public diplomacy, and 
30 more times than for the Peace Corps.
    I have no doubt that the members of this subcommittee and 
the American people will benefit from the opportunity to learn 
today from our witnesses and your decades of collective 
military, arms control, and national security experience. I 
want to thank all of you for being with us today. We look 
forward to your testimony.
    [The prepared statement of Hon. John F. Tierney follows:]

    [GRAPHIC] [TIFF OMITTED] 48657.001
    
    [GRAPHIC] [TIFF OMITTED] 48657.002
    
    [GRAPHIC] [TIFF OMITTED] 48657.003
    
    Mr. Tierney. I now yield to Mr. Burton, recognized for 5 
minutes.
    Mr. Burton. I want to take 5 minutes. I appreciate your 
giving me a little bit of time.
    In 1983, right after I was elected to the Congress, I was 
on the floor of the U.S. House and a fellow named Tom Downey 
from New York and a fellow from Tennessee named Al Gore were 
discussing this very issue in 1983. I debated them for about an 
hour, and that was the first time the term was used, Star Wars, 
first time. Tom Downey I think is the one that coined that 
phrase, and Al Gore jumped all over it. Ever since then, we 
have been denigrating, if you will, or saying that a missile 
defense system like this simply was not going to be effective 
and it was going to be too costly.
    The fact of the matter is, one of the reason the Soviet 
Union fell apart and is no longer a major threat is because we 
did start developing a missile defense system and the Soviet 
Union simply could not keep up. They just kept spending their 
money to such a degree that they finally just had to dissolve 
the whole system over there.
    I believe, especially after what we just saw recently with 
the point-to-point hitting of the incoming satellite that was 
falling out of orbit, that the technology is there to do a good 
job in defending against an intercontinental ballistic missile 
and maybe even a shorter-length missile.
    The problem that I have about destroying or doing away with 
a missile system like we have, missile defense system like we 
have, is that I don't know what China is going to do. We just 
found out they are going to increase their military board by a 
dramatic amount, and they have already stolen a ton of our 
technology, including the ability to launch satellites and to 
launch missiles intercontinentally, should they decide to do 
that. Russia still has that ability. North Korea has been 
testing missiles that would go beyond the Sea of Japan, and 
maybe even intercontinentally. Iran is trying to develop 
everything they can, including nuclear weapons, as well as, I 
believe, a delivery system that could even hit the United 
States, as well as western Europe.
    So I think that, even though this is a costly undertaking, 
this is something that we should continue to move on. Nobody 
knows how the United States may be attacked. Nobody ever 
thought we would be attacked by two airplanes flying into the 
World Trade Center or the Pentagon, but it happened. I think 
that we should do whatever is necessary to make sure that this 
Nation is protected from any kind of an attack, interior, 
inside the country, or outside. I think that is why this system 
that we are developing still needs to be pursued.
    We may find ways to economize. I have no problem with that, 
Mr. Tierney. But I think it is something that we should 
continue to work on. We have been working on it since I got 
here in 1983, and I think it has a lot of merit, and for that 
reason I will listen with great interest to our witnesses, but 
I certainly hope we won't derail this system.
    Mr. Tierney. I thank you, Mr. Burton.
    Mr. Burton, I think we shared this with Members in our 
brief. This first hearing is just to give us an idea of the 
threats and sort of prioritize where they are and how our 
resources are going. We will have a subsequent hearing on the 
technological aspects of it, and, along the line of that, 
something about the spiral development and block scheduling and 
whether or not we really have the accountability that we need 
as an oversight committee to determine. It has been going since 
1983, and $120 billion.
    There is some question, I think, that we should be looking 
at whether we are deploying before we adequately test, or 
whatever, even if you have a system. That argument goes, have 
one, but how do you go about it and how do you have the 
accountability? And then the last one, we will have the Defense 
Agency, itself, to make its presentation so that we get all 
angles on this thing.
    Mr. Welch, do you have any comments? In fairness, we 
expanded the openings a little bit.
    Mr. Welch. No, I don't.
    Mr. Tierney. Thank you.
    Mr. Shays, you are recognized.
    Mr. Shays. Thank you, Mr. Chairman, for scheduling this 
hearing today. Missile defense is a vitally important topic. 
Protecting our homeland is a daunting task. We live every day 
with the knowledge there are terrorists who seek to harm us and 
countries that wish to harm us. We acknowledge that individuals 
in a rogue nation may elect to strike us 1 day. Evil people and 
rogue regimes are constantly considering new ways to threaten 
the United States. We must remain vigilant. Each day we must 
safeguard our infrastructure and, more importantly, protect our 
citizens.
    Sadly, ours is a world where hostility and brutal, 
undemocratic regimes like Iran and North Korea have or seek 
nuclear weapons. They also want to develop long-range ballistic 
missiles. Together, these elements pose a dire challenge to our 
Nation. We cannot help but be concerned about this threat. Of 
course, decisions made about how best to protect our States 
must be weighed against the various defense options available 
to us.
    In fiscal year 2008, Congress appropriated nearly $10 
billion for missile defense. This enormous sum clearly deserves 
oversight, but we must remember, as well, the financial and 
emotional cost of a successful missile strike on our territory 
would cost far more than $10 billion. It is against this 
alternative that we must examine the missile defense program.
    Nine years ago, President Clinton decried ``the growing 
danger that rogue nations may develop and field long-range 
missiles capable of delivering weapons of mass destruction 
against the United States and our allies.'' Just 2 weeks ago, 
the Deputy Director of National Intelligence told the Armed 
Services Committee, ``Iran continues to deploy ballistic 
missiles inherently capable of delivering nuclear weapons.'' He 
also said Iran ``sought to develop longer-range missiles.'' The 
Deputy Director told members North Korea possessed nuclear 
weapons and ``has already sold ballistic missiles to several 
Middle East countries and to Iran.'' And he observed that one 
type of North Korean missile ``probably was the potential 
capability to deliver a nuclear-weapon-sized payload to the 
continental United States.'' This is a threat we cannot be 
blind to.
    Today I wrestle with whether or not our priorities are 
correct. Should we be putting money into a ballistic missile 
shield or should we divert some or all of the funds into other 
forms of protection for our homeland?
    There is one final point I would like to make concerning 
the development of a national missile defense. Before September 
11th the Hart Rudman Commission argued we needed a Department 
of Homeland Security with all its accompanying powers. If the 
Department of Homeland Security had been operational before 
September 11, 2001, it is very likely the terrorists who flew 
commercial airplanes into the World Trade Center would have 
been caught. This, of course, would have saved thousands of 
lives and trillions of dollars, so I can't help but wonder if 
advocates of a strong missile defense, like the members of the 
Hart Rudman Commission, are people we should be listening to. 
It seems to me the answer is yes.
    Thank you, Mr. Chairman.
    [The prepared statement of Hon. Christopher Shays follows:]
    [GRAPHIC] [TIFF OMITTED] 48657.004
    
    [GRAPHIC] [TIFF OMITTED] 48657.005
    
    Mr. Tierney. Thank you, Mr. Shays.
    The subcommittee will now receive testimony from the 
witnesses before us today. I would like to take the opportunity 
to introduce them generally. They all have much, much steeper 
credentials than I am going to have the time to record here.
    Our first witness is Joseph Cirincione. This hearing marks 
the first day Mr. Cirincione actually takes office as president 
of the Ploughshares Fund. Congratulations. He was most recently 
vice president for National Security and International Policy 
at the Center for American Progress. He is the author of a 
recent book, Bomb Scare: the History and Future of Nuclear 
Weapons. He teaches at Georgetown University and was some years 
ago a staffer on the predecessor to this committee, as well as 
on the House Armed Services Committee.
    Welcome, Mr. Cirincione.
    Baker Spring is the F.M. Kirby research fellow in national 
security policy at the Heritage Foundation. Mr. Spring began 
studying missile defense issues while researching the SALT II 
Treaty as an intern in the 1970's. He later served on the 
staffs of Senators Paula Harkins and David Kearns. He has also 
developed tabletop exercises for nuclear war games.
    Steven A. Hildreth has been a specialist in missile defense 
and nonproliferation at the Congressional Research Service 
since 1985. He is a graduate of the National War College, has 
published several books on security assistance and advanced 
weapons in developing countries. He has written numerous 
reports for Congress, primarily dealing with missile defense 
and missile proliferation. Mr. Hildreth led the Congressional 
Research Service's efforts in support of the Joint 
Congressional Committee Investigating the Attacks of 9/11.
    Dr. Stephen E. Flynn is the Jean J. Kilpatrick fellow for 
national security studies at the Council on Foreign Relations 
in New York. He is a retired U.S. Coast Guard Commander. He is 
the author of the recent book, The Edge of Disaster: Rebuilding 
a Resilient Nation, and the national best seller, America the 
Vulnerable. At the Council on Foreign Relations, Dr. Flynn 
directs an ongoing private sector working group on homeland 
security. He was also the director and principal author for the 
report, ``America: Still Unprepared, Still in Danger,'' for the 
task force co-chaired by former Senators Gary Hart and Warren 
Rudman.
    The subcommittee wants to thank all of you for being with 
us today, for your many years of experience and first-hand 
knowledge on the topics that we will be discussing. I am sure 
you are going to provide us with excellent starting points and 
perspective for this series of hearings.
    We swear in all of our witnesses that testify before this 
subcommittee, so I would like to ask you to please stand and 
raise your right hands. If there is any other person that might 
be assisting you in your testimony, please ask them to stand, 
as well.
    [Witnesses sworn.]
    Mr. Tierney. The record will please reflect that all 
witnesses answered in the affirmative.
    Gentlemen, your full written statements will be entered on 
the record. We have had the opportunity to read them. I can't 
imagine that too many of them would fit within the 5-minute 
provision that we have here, but they were very valuable in the 
information they provided, so I know that those Members that 
are here have probably already read them or will read them.
    We will give you 5 minutes. Most of you have testified 
before us. The green light gets you started, yellow light lets 
you know there is a minute or so to go, the red light means it 
is over. We have a practice in this subcommittee of not 
shutting people off mid-sentence. We would love to hear you 
conclude your thought, but be mindful of the other people 
testifying and their need for time, as well as the opportunity 
Members want to have questions. We would like you to stay as 
close to the 5-minutes as you possibly can.
    Mr. Cirincione, will you please start us off with your 
testimony?

 STATEMENT OF JOSEPH CIRINCIONE, PRESIDENT OF THE PLOUGHSHARES 
  FUND; BAKER SPRING, F.M. KIRBY RESEARCH FELLOW IN NATIONAL 
 SECURITY POLICY, THE HERITAGE FOUNDATION; STEVEN A. HILDRETH, 
 SPECIALIST IN NATIONAL DEFENSE FOREIGN AFFAIRS, DEFENSE, AND 
TRADE DIVISION, CONGRESSIONAL RESEARCH SERVICE; AND STEPHEN E. 
FLYNN, SENIOR FELLOW FOR NATIONAL SECURITY STUDIES, COUNCIL ON 
                       FOREIGN RELATIONS

                 STATEMENT OF JOSEPH CIRINCIONE

    Mr. Cirincione. Thank you, Mr. Chairman. It is a pleasure 
to be here. I have much in common with the members of this 
committee. I grew up in Connecticut, I was educated at Boston 
College, and I vacation in Vermont.
    Mr. Tierney. Been to Indiana lately?
    Mr. Cirincione. I haven't been to Indiana. Sorry.
    More importantly, I served on the predecessor to this 
committee, the Government Operations Committee, as the deputy 
staff director for then the National Security Subcommittee. We 
did investigations into the ballistic missile threat at that 
time. We had Steve Hildreth give what I thought was some of the 
best testimony Congress ever got during those years. I was also 
on the House Armed Services Committee. My very fist assignment 
when I joined in 1984 was oversight over the strategic defense 
initiative.
    At that time we were not worried about a prototype Iranian 
missile that might or might not be deployed. We were worried 
about 5,000 Soviet warheads on SS-18 and SS-19 missiles 
screaming over the pole, hitting the United States, destroying 
not just our country but most life on this planet.
    I have known ballistic missile threats. I have researched 
ballistic missile threats. Mr. Chairman, this is not a serious 
ballistic missile threat that we face today. Don't get me 
wrong: we do have threats, we do have challenges, but they pale 
in comparison to the challenges we confronted 15 or 20 years 
ago when President Reagan began what is still the initiative to 
find an effective defense against these ballistic missiles. I 
believe the best way to summarize it is the way I do in the 
first page of my testimony: the ballistic missile threat today 
is limited and changing relatively slowly. There is every 
reason to believe that it can be addressed through measured 
military preparedness and aggressive diplomacy.
    The most serious threat the United States and our allies 
face are the short-range missiles confronting us in various 
theaters of operation, not the long-range missiles that are the 
focus of the bulk of the anti-ballistic missile budget.
    I want to talk about the ballistic missile budget, which is 
why we are here today.
    [Slide.]
    Mr. Cirincione. The ballistic missile budget request this 
year is four times the size of what President Reagan was 
requesting when he was trying to find an effective counter-
measure to those 5,000 SS-18s and 18 missiles. The $12.3 
billion sets a record for anti-ballistic missile funding, and 
it would expend over $60 billion over the next 5 years.
    A great deal of that money is devoted to the still 
hypothetical Iranian missile. The budget request over the next 
5 years is some $10 billion be devoted to countermeasures to 
the medium-range Shahab III ballistic missile.
    I believe that, in order for Congress to judge whether 
these sums are necessary, they need a comprehensive assessment 
of the ballistic missile threat. Congress has never, never 
gotten this kind of assessment.
    Here is what I mean. When you look at where we were 20 
years ago or 10 years ago, what immediately strikes you is that 
the world we face today has a decreasing number of ballistic 
missiles. There are fewer ballistic missiles in the world today 
than there were 10 years ago or 20 years ago. There are fewer 
hostile missiles potentially threatening the United States. 
There are fewer countries with ballistic missiles potentially 
threatening the United States. But there are more countries 
that have started medium-range ballistic missile programs, but 
they are poor and less technologically advanced than the 
countries that had long-range ballistic missile programs some 
20 years ago.
    Let me just give you a few facts to back up those bars on 
the chart. No. 1, there are currently far fewer 
intercontinental ballistic missiles and long-range submarine-
launched ballistic missiles than there were during the cold 
war. The total number of long-range ballistic missiles 
potentially threatening the United States has decreased by 71 
percent over the last 20 years. By anybody's standard, that is 
a decreasing long-range ballistic missile threat.
    The total number of medium- and intermediate-range 
ballistic missiles has decreased by 80 percent. We are now 
primarily worried about approximately 70 Chinese missiles that 
could hit regional targets. Some could hit the United States. 
About 20 of those could hit the United States. About 90 North 
Korean NoDongs--again, these are medium-range missiles that 
would threaten South Korea or Japan or U.S. forces in the 
area--and a small number of Iranian Shahab III missiles that 
could hit neighboring countries.
    Even with those existing threats, it is an 80 percent 
reduction in the kinds of threats we faced 20 years ago. Five 
new countries--India, Pakistan, China, North Korea, and Iran--
have developed limited medium-range ballistic missile 
capabilities since the late 1980's, yet there were still fewer 
medium-range missiles than there are today.
    The vast majority of nations with ballistic missiles have 
only short-range ballistic missiles with ranges under 1,000 
kilometers, basically SCUDs. This is often ignored when 
officials or experts cite the 30 countries with ballistic 
missile capability. That is true. There are approximately 28 
countries with ballistic missiles, but of these 17 have only 
SCUD-B missiles or similar. Most of these countries are friends 
or allies of the United States.
    So when you look at the ballistic missile threat, it really 
comes down to a handful of countries that are potentially 
hostile to the United States.
    The next chart gives you my overall assessment of this 
threat. This is the kind of assessment that I believe Congress 
deserves before it can make a judgment on the budget. It 
shouldn't be satisfied with assessments that cherry-pick one or 
two threats and then pretend that is the kind of comprehensive 
assessment we demand. Overall, a decrease in long-range 
ballistic missiles, a decrease in intermediate-range ballistic 
missiles, some increase in medium-range missiles, primarily 
from these new programs I mentioned, a declining inventory of 
short-range ballistic missiles, fewer hostile countries with 
ballistic missile programs, and the potential damage from 
ballistic missile attack, while very serious, is orders of 
magnitude below that what it was 20 years ago.
    The assessment I have presented to you I am sure has errors 
in it, some mistakes in a few of the numbers, but I believe 
that it is the kind of assessment that Congress should demand 
the administration present to support a budget request of this 
magnitude.
    Thank you.
    [The prepared statement of Mr. Cirincione follows:]
    [GRAPHIC] [TIFF OMITTED] 48657.006
    
    [GRAPHIC] [TIFF OMITTED] 48657.007
    
    [GRAPHIC] [TIFF OMITTED] 48657.008
    
    [GRAPHIC] [TIFF OMITTED] 48657.009
    
    [GRAPHIC] [TIFF OMITTED] 48657.010
    
    [GRAPHIC] [TIFF OMITTED] 48657.011
    
    [GRAPHIC] [TIFF OMITTED] 48657.012
    
    [GRAPHIC] [TIFF OMITTED] 48657.013
    
    [GRAPHIC] [TIFF OMITTED] 48657.014
    
    [GRAPHIC] [TIFF OMITTED] 48657.015
    
    [GRAPHIC] [TIFF OMITTED] 48657.016
    
    [GRAPHIC] [TIFF OMITTED] 48657.017
    
    [GRAPHIC] [TIFF OMITTED] 48657.018
    
    [GRAPHIC] [TIFF OMITTED] 48657.019
    
    [GRAPHIC] [TIFF OMITTED] 48657.020
    
    [GRAPHIC] [TIFF OMITTED] 48657.021
    
    [GRAPHIC] [TIFF OMITTED] 48657.022
    
    [GRAPHIC] [TIFF OMITTED] 48657.023
    
    [GRAPHIC] [TIFF OMITTED] 48657.024
    
    [GRAPHIC] [TIFF OMITTED] 48657.025
    
    [GRAPHIC] [TIFF OMITTED] 48657.026
    
    [GRAPHIC] [TIFF OMITTED] 48657.027
    
    [GRAPHIC] [TIFF OMITTED] 48657.028
    
    [GRAPHIC] [TIFF OMITTED] 48657.029
    
    [GRAPHIC] [TIFF OMITTED] 48657.030
    
    [GRAPHIC] [TIFF OMITTED] 48657.031
    
    [GRAPHIC] [TIFF OMITTED] 48657.032
    
    [GRAPHIC] [TIFF OMITTED] 48657.033
    
    [GRAPHIC] [TIFF OMITTED] 48657.034
    
    Mr. Tierney. Thank you, Mr. Cirincione.
    Mr. Spring.

                   STATEMENT OF BAKER SPRING

    Mr. Spring. Thank you, Mr. Chairman. I very much appreciate 
the opportunity to testify today on the ballistic missile 
defense program.
    According to a statement by President Bush before the 
National Defense University last October, there are 27 states 
that possess ballistic missiles. That compares to about nine in 
1972. The question is not, in my judgment, the overall number 
of the missiles as to the circumstances that are presented by 
the distribution of this.
    By any measure, the United States now finds itself in a 
multi-polar missile world. The key policy question facing the 
United States, now that it finds itself under this 
circumstance, is how it will respond. In my judgment, it 
basically faces to alternatives. On the one hand, the United 
States can multi-lateralize the cold war policy of purposeful 
vulnerability established in the bipolar cold war. This was 
called mutually assured destruction [MAD].
    Alternatively, the United States can adopt a policy to 
defend its people, territory, allies, and forward deployed 
forces against missile attack to the best of its ability. I 
call this alternative a damage limitation strategy.
    Analysts at the Heritage Foundation have revealed that 
multi-lateralizing mutually assured destruction would be a 
profoundly destabilizing choice, and that the damaged 
limitation strategy is the preferred option for maintaining 
peace and stability in a multi-polar missile world.
    Obviously, there has been extensive discussion, including 
today so far with regard to the emerging missile threats in the 
form of the state actors, specifically Iran and North Korea. 
Certainly we can continue to look at that.
    I think it is important, though, from this policy 
perspective, that we also focus on the friends and allies of 
the United States that are also moving toward ballistic missile 
delivery systems, and in some cases nuclear weapons. These 
include Egypt, India, Israel, Pakistan, South Korea, and 
Turkey.
    How the United States goes about reducing the likelihood 
that these allied or friendly states will be tempted to use 
their missile arsenals in a way that will draw the United 
States into a conflict has not been widely discussed, but this 
is at the core of the question of strategic stability in a 
multi-polar world.
    This issue will become much more pressing as these same 
states may be tempted, perhaps, for example, in response to 
Iran's nuclear program, to pursue nuclear weapons insofar as 
that three of them--India, Israel, and Pakistan--are at least 
presumed to be de facto nuclear powers. It is adjusting to this 
particular circumstance of nuclear and missile multi-polarity--
and I would extend that actually to other weapons of mass 
destruction, as well, using that delivery system, which I think 
is really the pressing question and what justifies the $10 
billion that we are talking about here.
    What is it that I would do with the missile defense program 
to make sure that it keeps on track, in my judgment, to execute 
the damage limitation strategy that I have outlined in broad 
brush here?
    First, I think it is important for Congress not to put 
procedural roadblocks in the way of the best technological path 
to effective missile defense. One of the reasons that, in my 
judgment, we are behind the curve with regard to addressing the 
missile threat is the United States had adopted that policy of 
mutually assured destruction and a treaty that went with it for 
a 30-year period that effectively blocked what I would view as 
the most effective avenues and cost-effective avenues to 
missile defense.
    We are beyond that treaty now. President Bush has withdrawn 
the United States from it. But we are still in the process, in 
my judgment, of catching up over on the 30-year period where we 
were subject to those restraints.
    I would maintain robust funding for the missile defense 
program, but that would still be within the 2 or 3 percent of 
our total defense budgets. I think it is unlikely that it would 
go much higher than that.
    I think we should look at space-based options, including 
the space test bed that is in the President's budget request 
this year.
    I think we should set aside the charge that a ballistic 
missile defense program would ``weaponize space.'' My judgment 
is the ballistic missiles that fly through space are the 
capabilities that have resulted in the weaponization of space.
    I think we should look at sea-based options more readily 
than the ground-based options, in balance.
    And I think that we should make sure that we don't put any 
restrictions on putting developmental missile defense systems 
on operational alert when circumstances suggest that we should 
do so, as we did in 2006 with the North Korean salvo launch.
    And I think we should shift responsibility, as missile 
defense programs mature, from the Missile Defense Agency to the 
services, as we are doing with the Patriot system now and I 
think we should start doing with the sea-based systems in the 
near future.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Spring follows:]
    [GRAPHIC] [TIFF OMITTED] 48657.035
    
    [GRAPHIC] [TIFF OMITTED] 48657.036
    
    [GRAPHIC] [TIFF OMITTED] 48657.037
    
    [GRAPHIC] [TIFF OMITTED] 48657.038
    
    [GRAPHIC] [TIFF OMITTED] 48657.039
    
    [GRAPHIC] [TIFF OMITTED] 48657.040
    
    [GRAPHIC] [TIFF OMITTED] 48657.041
    
    [GRAPHIC] [TIFF OMITTED] 48657.042
    
    Mr. Tierney. Thank you, Mr. Spring.
    Mr. Hildreth.

                STATEMENT OF STEVEN A. HILDRETH

    Mr. Hildreth. Thank you, Mr. Chairman. Chairman Tierney, 
Mr. Shays, distinguished members of the subcommittee, I want to 
thank you all very much for this opportunity to come here today 
and talk about this issue.
    I want to acknowledge the collaboration of a couple of 
colleagues that are here and actually sit behind me in this 
effort: Mary Beth Nikitin and Paul Kerr. Their assistance, 
their work in this area is significant, and I want to 
acknowledge that here today.
    There are any number of threats, different kind of threats, 
to the United States and its national security interests. What 
I want to focus on and what I did in my statement was focus on 
just one part of that, and that was ICBMs armed with nuclear 
weapons, nuclear warheads.
    I last appeared before this subcommittee in 1992--Joe was 
here--during its investigation of the Patriot missile defense 
system performance during Operation Desert Storm. It is useful 
to recall that during the 1991 war with Iraq what we saw and 
what we were told with respect to the patriot SCUD engagements 
was not necessarily, as it turns out, what actually happened. 
This underscores the importance of rigorously examining 
assertions concerning weapon systems' performance and 
development.
    Since the dawn of the rocket age, only five countries have 
demonstrated the ability to develop, test, and deploy or field 
ICBMs armed with nuclear weapons. Since the early 1960's, there 
have been any number of intelligence assessments and studies 
that predicted that number would be much higher.
    The question is, why has that not happened? Why has this 
number not increased, as many had predicted. I believe that no 
small part of the reason lies with the serious technical 
challenges that countries face in building an operational ICBM.
    The statement that I have briefly discusses some of these 
technical and organizational management challenges that nations 
face in developing such capabilities. The five countries that 
today have those capabilities all needed to overcome those 
challenges, and in some cases by receiving significant foreign 
assistance.
    A review of those challenges can add what I would call 
perspective to look at all these issues, look at the challenge 
in developing ICBMs, and put that in perspective in trying to 
better understand the likelihood that countries might develop, 
deploy, and threaten U.S. national security interests. I think 
that this perspective helps lead to a better estimation of 
those likelihoods.
    There are many key parts of an ICBM, and in my statement I 
go into those things, things like propulsion system, the 
payload or compact nuclear device, the re-entry vehicle, and 
then there are additional factors that we have seen in the 
successful development of an ICBM program such as testing and 
organization management that are all seen as important to see 
or to produce a successful ICBM for fielding. I am not going to 
go into all those right now because I know that many of you had 
a chance to see the statement, and I will leave that.
    Basically, to sum up, saying that it is a daunting 
challenge. The fact that only five nations have ever 
accomplished this ability, this capability, in the past 50 
years is perhaps testament to the fact that this is a 
technically daunting challenge. Not to say that other countries 
can't do this, but it is to say, in perspective, that it is a 
difficult, difficult task.
    Each and every one of these things--RVs, propulsion 
systems, guidance systems, so forth--present a multitude of 
technical challenges and hurdles to overcome that are just not 
easily done, and that is basically the track record that we 
have had among the five ICBM countries.
    There has been discussion in the past decades since the 
Rumsfeld Commission that some countries, such as Iran, Iraq, 
and North Korea, could develop ICBMs in a significantly 
different manner. Within those studies--and this extends also 
to efforts on the part of the intelligence community over the 
past decade--there are many assumptions made to support this 
thought.
    First is that countries will pursue alternative paths to 
building missiles that will not require ``high standards of 
missile accuracy, reliability, and safety, nor large numbers of 
missiles.'' Second, countries will obtain significant foreign 
assistance in developing those missiles. Third, having or 
building short-range ballistic missiles such as Scuds provides 
the means to develop ICBMs.
    Each and every one of those are arguable. I just want to 
touch on one, and that is that this issue of deploying an ICBM 
without testing could be readily done, but, even according to 
the 1999 national intelligence assessment, doing so would 
result in significantly reduced confidence in the reliability 
of that system.
    Also, foreign assistance, of course, could speed up 
development of ICBMs and nuclear warheads, but some observers--
and I know Joe testified just last summer on that--most 
suppliers appear to be withholding meaningful assistance. 
Arguably, gaining foreign help with ICBMs has become more 
difficult over time. The fact that in recent testimony by the 
intelligence community to Congress before the Senate Armed 
Services Committee, if you read the prepared statements, there 
is nothing in their prepared statements about this kind of 
assistance for foreign missile development, where in previous 
years it was highlighted.
    Two countries have successfully developed and deployed 
operational nuclear-armed ICBMs. The developmental records of 
their efforts indicate how challenging that effort has been. 
The fact that more nations have not done this, as I mentioned, 
is perhaps witness in part to the extraordinary technical 
effort it took. The long history of ICBMs demonstrates that 
such success took considerable resources and time, funding, 
knowledge, infrastructure, organization, and national 
commitment. It is this aspect of it, this perspective, that I 
think is lacking in so many of the discussions about ICBM 
threats to the country today.
    On that note I would like to end. Thank you very much for 
your time.
    [The prepared statement of Mr. Hildreth follows:]
    [GRAPHIC] [TIFF OMITTED] 48657.043
    
    [GRAPHIC] [TIFF OMITTED] 48657.044
    
    [GRAPHIC] [TIFF OMITTED] 48657.045
    
    [GRAPHIC] [TIFF OMITTED] 48657.046
    
    [GRAPHIC] [TIFF OMITTED] 48657.047
    
    [GRAPHIC] [TIFF OMITTED] 48657.048
    
    [GRAPHIC] [TIFF OMITTED] 48657.049
    
    [GRAPHIC] [TIFF OMITTED] 48657.050
    
    [GRAPHIC] [TIFF OMITTED] 48657.051
    
    [GRAPHIC] [TIFF OMITTED] 48657.052
    
    [GRAPHIC] [TIFF OMITTED] 48657.053
    
    [GRAPHIC] [TIFF OMITTED] 48657.054
    
    [GRAPHIC] [TIFF OMITTED] 48657.055
    
    [GRAPHIC] [TIFF OMITTED] 48657.056
    
    [GRAPHIC] [TIFF OMITTED] 48657.057
    
    Mr. Tierney. Thank you, Mr. Hildreth.
    Dr. Flynn, your testimony, please?

                 STATEMENT OF STEPHEN E. FLYNN

    Mr. Flynn. Thank you very much, Mr. Chairman.
    Like Joe Cirincione, I have some linkage to yourself and 
the ranking member here. I spent the first 18 years of my life 
growing up in your District, and the last 20-plus years living 
in Mr. Shays' State of Connecticut. Mr. Burton, I am heading to 
Indianapolis at the end of this month. I will have a chance to 
talk to the Indianapolis Committee on Formulations and spend a 
day at the University of Indiana in Bloomingdale, so I am 
looking forward to that.
    Mr. Tierney. Your problem is that we are now joined by 
somebody from Kentucky, so you have to find a link there.
    Mr. Flynn. Yes, I have to work all this in here.
    Thank you so much, all of you, for being here today. It is 
an honor to be here today.
    I think I am particularly grateful for the fact that you 
have asked me to offer some perspectives this morning about how 
this threat sits in the context of other ways in which one 
could target the U.S. homeland with nuclear weapons.
    Despite the events of September 11th, Washington continues 
to look at security challenges confronting the United States as 
if national security starts and stops at the water's edge. 
Debates about threats, tactics, and strategies within the 
traditional national security community have remained 
remarkably and disturbingly isolated from the assessment of 
threats, vulnerabilities, and policies commonly associated with 
homeland security.
    The U.S. national security community also continues to 
assign a higher priority to programs designed to confront 
conventional military threats such as ballistic missiles than 
unconventional threats such as a weapons of mass destruction 
smuggled into the United States by a ship, train, truck, or 
even private jet.
    While terrorists demonstrated on 9/11 that their preferred 
battle space is in the civil and economic space, the Pentagon 
has made clear its preference for other entities to be assigned 
the responsibility for managing that new reality when it falls 
at or within the U.S. borders. The White House and 
congressional staff with oversight responsibilities for 
defense, intelligence, and foreign affairs have also held the 
homeland security mission at arm's length.
    As a consequence, there is no place within the U.S. 
Government where tradeoff issues associated with national 
security and homeland security are routinely raised or 
adjudicated. This hearing is very much an exception to that 
rule, and I commend you, Mr. Chairman, for having it.
    I cite in my testimony about one of the examples about how 
this bridge between national security and homeland security can 
leave Americans less secure by pointing to, for instance, the 
amount of money we spend on force protection here inside the 
United States for U.S. military basis. Of a budget last year of 
about $16.5 billion, that money, about two-thirds, went to 
protecting U.S. bases on U.S. soil. That amount reflects more 
than 20 times what we are spending protecting critical 
infrastructure at major cities within the United States.
    The logic of this is that we essentially are hardening 
military bases and making civilian assets more attractive, 
softer targets for our adversary. This clearly isn't the 
intention, but it is the outcome of not looking at the threat 
environment, the homeland and national security, in a kind of 
strategic context.
    In the same way I would argue we have the same disconnect 
here in the area of ballistic missile defense. The executive 
and legislative advocacy to build the defenses for nuclear 
missiles have not included a side-by-side consideration of the 
risks that nuclear or biological weapons might be smuggled into 
the United States by other means, such as on board a small 
vessel, within a cargo container, aboard a private aircraft, or 
carried across U.S. land borders, nor is the investigation in 
programs whose aim is to mitigate the non-missile threat 
weighed against the investment associated with developing 
ballistic missile defense.
    The reason for this is that addressing the smuggling issue 
is viewed primarily as a Homeland Security responsibility to be 
managed by agencies such as the Domestic Nuclear Protection 
Office, Customs and Border Protection, and the Coast Guard. 
This translates into having the program reviewers at OMB and 
the congressional authorization appropriation processes move 
along separate tracks.
    In the end, the sum of the combined budgets for funding the 
domestic and international maritime and port of entry 
interdiction efforts pursued by Customs and Border Protection, 
Coast Guard, and the DNPO is about one-half the amount that we 
are allocating for missile defense. Nowhere in the U.S. 
Government has there been or is there now an evaluation of 
whether that represents an appropriate balance.
    What seems clear, however, is this: should missile defense 
continue to be developed without a parallel commitment and 
putting in place protective measures to detect and intercept 
the transport of nuclear weapons by non-missile means, the 
Department of Defense will end up providing less protection by 
fueling the development of our adversaries into the non-missile 
realm.
    These two things clearly have to be considered in parallel.
    I lay out four reasons that essentially I would place a 
non-missile threat as a higher threat. I would be happy to go 
into them in detail a little bit later. The first is that it 
represents the only realistic option for our current clear and 
present adversary, our non-state actor, al Qaeda. That is the 
folks we are dealing with. Non-traditional is their option.
    The second, that even for a state actor there is the 
benefit, as you said in your opening statement, for anonymity 
when you bring it in by a surrogate or you use a terrorist to 
bring it here. You don't have the blueprint of where or the 
footprint of where the missile came from.
    Third, there simply is so much opportunity--and this is 
based on my two decades of experience being on the front lines 
and assessing it--for essentially penetrating legitimate 
conveyances into the United States. I go through and talk 
through, and I would be happy to talk to you later, an example 
of how open that system still remains by effort since 9/11.
    In light of that, I also highlight here, as a final set of 
issues here, that when you use a commercial conveyance for 
potentially getting the weapon in, you also get a two-fer. You 
not only get the destruction that the nuclear weapon would 
present, but you also get the cascading economic consequences 
when we are spooked by those conveyances. I particularly am 
concerned about, that if it came to us by a box and our 
response is to essentially shut down all boxes to sort this 
out, we will bring our global economy literally to its knees in 
about 2 weeks, because the intermodal transportation system 
will grind to a halt.
    So if our adversaries are thinking in terms of economic 
disruption, not just loss of life, then we clearly have to 
think in that kind of totality.
    Now let me, in conclusion, say that I believe there are 
three bottom-line conclusions:
    First, the emphasis ballistic missile defense has been 
receiving since the post-9/11 era is disproportionate to the 
more probable risk that other means will be sought by America's 
current and future adversaries to our U.S. homeland.
    Second, to the extent that the U.S. Government continues to 
invest in ballistic missile defense, it should be committed to 
a parallel effort to deal with the non-missile risk, 
particularly since success at BMD would only elevate the non-
missile risk.
    Finally, Congress needs to take a hard look at the 
oversight process to manage this duality, the non-missile on 
the one side and the threat ballistic missile defense. I think 
that strikes to the very heart of what you are trying to 
achieve here today by hosting this hearing.
    Thank you very much, Mr. Chairman, for the opportunity to 
present this testimony.
    [The prepared statement of Mr. Flynn follows:]
    [GRAPHIC] [TIFF OMITTED] 48657.058
    
    [GRAPHIC] [TIFF OMITTED] 48657.059
    
    [GRAPHIC] [TIFF OMITTED] 48657.060
    
    [GRAPHIC] [TIFF OMITTED] 48657.061
    
    [GRAPHIC] [TIFF OMITTED] 48657.062
    
    [GRAPHIC] [TIFF OMITTED] 48657.063
    
    Mr. Tierney. Thank you, Dr. Flynn.
    I want to thank all of you for excellent testimony, both 
what you presented here today orally and what you submitted in 
writing.
    I am going to start the questioning period, if we can. We 
have 5 minutes, so you will find that Members sometimes get a 
little testy if you start to go on too long. They don't mean to 
be rude; they are just trying to get their questions in. If it 
is all right with the panel, I think we will try to do more 
than one cycle through here if we can on that.
    Let me just ask, Mr. Cirincione, Mr. Spring, and Mr. 
Hildreth--I know where Mr. Flynn stands on this--and limit you 
if I can to agree or disagree to the following statement: it is 
more likely that a nuclear weapon is going to be delivered into 
the U.S. territory via an unconventional means as opposed to an 
intercontinental ballistic missile. Agree or disagree, Mr. 
Cirincione?
    Mr. Cirincione. I completely agree.
    Mr. Tierney. Mr. Spring.
    Mr. Spring. I disagree, certainly in the context that if we 
were to purposefully leave ourselves open with regard to the 
avenue of missile attack. And by the way, I would include in 
that cruise missile. So I think I disagree.
    Mr. Tierney. Mr. Hildreth.
    Mr. Hildreth. I don't know. I know that the challenge of 
building an ICBM that would reach the United States is 
extraordinarily challenging, and I just haven't taken the time 
to look. The answer is I don't know. I know that building an 
ICBM capable of delivering something to the United States from 
a couple of these countries, in particular, is an 
extraordinarily technical accomplishment and challenging.
    On the other side, it is not something I have looked at in 
detail, with the same rigor, the capability to deliver 
something smaller scale into the United States, although I do 
know the literature tends to support that it is relatively 
easier.
    Mr. Tierney. Thank you.
    Mr. Cirincione, Mr. Spring in his testimony seemed to 
indicate that he thought the ABM Treaty was a detriment to our 
defense on this, so let me ask you whether you think that the 
ABM was actually successful in any way in the decrease that you 
have seen in the number of exposures to intercontinental 
ballistic missiles, or whether you also think it was somehow 
detrimental to our situation.
    Mr. Cirincione. At the time, the Anti-Ballistic Missile 
Treaty was a necessary part of the U.S. effort to limit and 
then decrease the soviet missiles that threatened us, so yes, 
the ABM Treaty played a very important part in the decreasing 
of ballistic missile threat through the efforts of Republican 
and Democratic Presidents. I believe it is a myth that the ABM 
Treaty in any way inhibited our technological development of 
effective anti-ballistic missile weapons.
    The current administration came into office fervently 
believing that, and their No. 1 priority in 2001 was to scuttle 
the Anti-Ballistic Missile Treaty. They believed once that was 
out of the way that they could advance rapidly toward deploying 
effective missile defenses, that they scuttled the treaty. It 
has been 7 years. We are no closer to anti-ballistic missile 
defenses that work now than we were during the Reagan era.
    Mr. Tierney. The last phrase, we are no closer to systems 
that work, I think we will probably get into more of that in 
the next technical hearings that we have on that, but let me 
ask this question: if a country that did somehow get the ICBM 
capability--and Mr. Hildreth raises the very serious question 
of how likely or unlikely that actually is for some of these 
countries, but if they did, what leads any of us to believe 
that an Iran or a North Korea or something like that would 
actually take their limited capability and target the United 
States, with the knowledge that the retaliation would be 
devastating?
    Mr. Cirincione. I believe deterrence is alive and well. I 
don't believe in the myth of the mad mullahs who are intending 
on bringing about an apocalypse. I think Iran, as a recent 
national intelligence estimate indicated last November, has a 
cost/benefit analysis to their decisions and that they would be 
dissuaded from taking such a suicidal act by the certainty of a 
swift and overwhelmingly devastating response from the United 
States.
    I believe that there are military measures we can take to 
enhance that deterrent effect on Iran. I believe the 
administration made a mistake by turning down President Putin's 
offer to use the radar facility at Azerbaijan and allow the 
United States to deploy short-range anti-ballistic missile 
weapons on Aegis cruisers in Turkey. That would have been an 
effective enhancement to the already existing deterrent 
capability.
    Mr. Tierney. Thank you.
    Dr. Flynn, I know that when we look at these there are 
people that say we have hundreds of thousands of potential 
targets in the United States for unconventional attack, but 
aren't there really a defined number of realistic targets that 
some terrorist might want to target in the United States that 
we could identify?
    Mr. Flynn. Yes. I think it is important to see that there 
are really two ways, when we talk about particularly 
conveyances coming to the United States, there are two ways to 
think about this. There are clearly the number of nuclear 
weapons that were maybe available to a terrorist would be 
incredibly small. That means they have to be pretty 
conservative about how they use those, and they want to get the 
biggest bang for their buck. So the things that are most 
critical for our country are most likely to be target critical 
in terms of loss of life potential and disruption for our 
society.
    The other component--and it is one more on the lower end of 
the spectrum--is a dirty bomb in the system, bringing something 
in a container, not because that may be the best way to get 
here, but because you spook the system. You lead us to over-
react, having huge cascading consequences. So it is an economic 
mass disruption.
    A nuclear weapon clearly could be also, when you have one 
of them, could be used in a way that would be a weapon of mass 
destruction. What you are really doing is you are creating 
uncertainty that there are other such weapons in the system, 
and when you don't have the means to manage that threat--just 
like we did on 9/11, we shut the system down to sort it out--
you start having incredible cascading effects.
    So it is one part that we have scenarios that would target 
specific things, loss of life, and take a regional kind of 
focus; others go after the system, themselves, and create 
uncertainty and fear that leads to significant economic 
consequences.
    Mr. Tierney. But in your expertise, is there a finite 
number of sites that we could focus on that would give us a 
reasonable comfortability that we are protecting those most 
likely targets?
    Mr. Flynn. Absolutely. Absolutely. There are places that 
either would be, because of loss of live potential--a lot of 
people live there--or business, that are incredibly important 
with a lack of redundancy in other systems that would cause 
real effect.
    Mr. Tierney. And we have the potential to put in place 
systems that would actually provide us with a fair modicum of 
protection?
    Mr. Flynn. Yes. We have to think broadly about protection. 
For instance, one way in which you could protect the pipeline 
coming from Alaska is have a quick and rapid response force to 
repair any damage done. It wouldn't make much sense for a 
terrorist to be hanging out in the tundra to take out a piece 
of the pipeline if you could fix it in 24 hours. The visual is 
lousy, so probably nobody is going to capture it, and it would 
have no real measurable effect if it is fixed quickly, so you 
don't need to put a National Guardsman up and down the gas 
line.
    So it is combination of thinking some things do need to be 
hardened, like the White House. You have to think about other 
things where there is redundancy. You can put extra systems, or 
you react quickly, but the fact is there are a finite number of 
critical assets in the country, most of which today have been 
largely unprotected in the ways that I just described, and 
therefore raise some great vulnerability.
    Mr. Tierney. What would be the budget that you would need, 
and how much time would it take to actually implement a 
protective system like that?
    Mr. Flynn. Well, as I highlighted in my testimony, we are 
just very much out of proportion with what we are willing to 
invest in the conventional threat scenarios.
    Mr. Tierney. How much money are you talking about, and over 
what period of time to get it fully implemented?
    Mr. Flynn. I can't provide a precise answer, unfortunately, 
for that because we really haven't completed the threat 
assessment or the site assessments, and we haven't thought 
through these different controls. But it is within the kinds of 
range of dollars we are talking about here in the missile 
defense line that would get us significantly ahead of where we 
are right now to safeguard those critical assets.
    Mr. Tierney. Thank you.
    Mr. Burton, you are recognized for 5 minutes.
    Mr. Burton. Thank you, Mr. Chairman.
    First of all, Mr. Flynn, I agree with your approach. I 
think we really need to pay more attention to other forms of 
attacks here in the United States other than just 
intercontinental ballistic missiles.
    We had a colleague of mine, Curt Weldon, who was on a 
television show I had every month bringing in a mock-up of a 
briefcase nuclear weapon which could destroy eight square 
blocks and probably kill 100,000 people with radioactive 
fallout, as well. So I share your concern about that, so that 
there probably needs to be a balance, and I would be one of 
those who would work with you or anybody to advocate that we 
come up with some kind of a balance.
    I do believe, however, that we do need an intercontinental 
ballistic missile system and also intermediate and short range.
    I would just like to say to my friends at the table there I 
am probably a little older than most of you.
    Mr. Tierney. There is no probably about that, Dan.
    Mr. Burton. There is no probably about that. Now do I get 
more time for that? [Laughter.]
    When I was a boy, I remember my father was reading the 
funny papers, we called it, on Sunday morning, and they had 
Flash Gordon, and he was flying through outer space with a 
backpack and looking at a television set, and I never will 
forget it, he said, That is crazy. You can't shoot pictures 
through the air without a movie camera. You can't fly without 
wings. And you certainly can't go into outer space like that. 
How are you going to get around with nothing but a backpack, 
and how are you going to breathe, and all that sort of thing. 
Well, every one of those things happened. Every one.
    And in World War I the President and the leaders of the 
world after World War I said, the best way to stay out of war 
is to just destroy our weapons. If everybody doesn't have these 
weapons, we won't have to worry. We sunk our ships and we 
destroyed our aircraft and we did all that, and so did our 
allies.
    And there was some guy named Adolph Hitler who violated the 
Treaty of Versailles and took a 100,000-man army that was 
supposed to be and built a multi-million-man army. He bought 
airplane engines from Great Britain, the Rolls Royce, and built 
the Luftwaffe, and he was developing a nuclear weapon, the V-2 
rocket, and jet planes, and all the rest of the world said, 
hey, that ain't going to happen. But it did, and 62 million 
people died.
    Now, I don't have a crystal ball, but I don't think anybody 
else does, either, and I think the technology that we have seen 
make quantum leaps in my lifetime, and in the last 10 years 
even more quantum leaps, would indicate that the delivery 
system of nuclear weapons could even become more effective and 
better with new technology, and that we need to defend 
ourselves against crazies that might launch them or people that 
bring briefcase nukes into the country. We need a multifaceted 
approach to dealing with the nuclear threat or any other kind 
of threat like that.
    So I don't think we should do away with our 
intercontinental ballistic missile system or defense system 
because I think it is extremely important.
    I also think that, in the process of developing this 
defense system, that we can also probably perfect it to where 
we can hit shorter-range and intermediate-range missiles that 
might be launched off the shore with the new technology and the 
ability to instantaneously see what is going on.
    I would just like to make one other comment about the 
mutual assured destruction. I always thought that was crazy. 
You say nobody is going to be a madman and launch a war like 
that. There have been madmen throughout history that have done 
those crazy things. All you have to do is get in the history 
books. And if you had some kind of a nut case that developed a 
nuclear system under the mutually assured destruction system, 
they could launch an attack that could, in effect, destroy the 
whole world and mankind as we know it.
    So it is my opinion that we need to have a multifaceted 
approach to deal with these horrific weapons, but that should 
include--and maybe to a lesser degree. Maybe, as my colleague 
here in the Chair feels, maybe we ought to reevaluate it and 
cut back the amount of money we are spending on a defense 
missile system, and maybe allocate more to what Mr. Flynn is 
talking about.
    But I think that this is a very, very dangerous world, and 
I think we need to do everything we possibly can to protect 
this country. We have very porous borders. We are very 
vulnerable to all kinds of things. And to do like they did in 
World War II or after World War I and say, we don't have to 
develop new weapons. We will destroy the old ones. We won't 
have to worry about a war. And we ended up with a war that 
killed 62 million people. Just think what it would be like if 
we had a nuclear war where they did start delivering these 
ICBMs and there was no defense for it.
    With that, thank you, Mr. Chairman.
    Mr. Tierney. Thank you, Mr. Burton.
    Mr. Welch, you are recognized for 5 minutes.
    Mr. Welch. Thank you, Mr. Chairman.
    Mr. Cirincione, you pointed out in your prepared testimony 
that six countries have had active intermediate- or long-range 
ballistic missile programs 20 years ago and they have halted 
them in countries like Argentina to South Africa. Can you 
comment on what lessons we learned from their decisions to halt 
ballistic missile programs, and can these be applied to North 
Korea and Iran?
    Mr. Cirincione. Sure. Would the staff put up table two on 
there, the chart of where we were in 1987 and where we were in 
2007--I am sorry, that is graph two. Table two is the list of 
countries with active intermediate-range.
    I draw on those lessons for my conclusion that we do face 
threats. We do need to have a balanced approach. That includes 
military measures. That includes research on and deployment of 
effective anti-ballistic missile weapons. But it also includes 
measured diplomacy, because the history tells us that it has 
been the diplomacy that has worked to eliminate these threats 
more so than the deployment of anti-ballistic missile systems.
    So you look at those countries we saw in 1987, these were 
all countries we were worried about--Argentina, Brazil--not 
because they were opponents of the United States, but they were 
engaged in missile programs, and Argentina was in cooperation 
with Libya and South Africa on an intermediate-range ballistic 
missile program.
    These were serious efforts, well-funded, a better 
technological base than most of the countries who we are 
worried about now. They were convinced to give them up by 
changes in their own regime--Argentina and Brazil ended the 
military juntas and restored civilian rule--and by diplomacy, 
including on the part of the United States to have conflict 
resolution between Argentina and Brazil, and export controls 
that limited the ability of these countries to get the 
technology they need.
    And 1987 is a very significant year. That is when President 
Reagan started the missile technology control regime where the 
countries that make this stuff agreed to limit their exports to 
help reduce the risk that some of these other countries would 
get it.
    South Africa is another case in point similar, a regime 
change that brought the majority rule, and export controls that 
slowed down the progress in their program had much more to do 
with them ending the program than any deployment of anti-
missile systems.
    Mr. Welch. Thank you. Thank you very much.
    Mr. Spring, there is use of asymmetric warfare that is the 
trump card for the terrorists. My question to you is your own 
assessment. Do you consider the ballistic missile threat to be 
more imminent than the nuclear terrorist threat? In other 
words, when we have to make choices in a world where there are 
limits on what we can do, how much time and effort we have, how 
much money we have, should we be focusing first on defending 
the United States from a nuclear armed ballistic missile or 
defending the United States from a nuclear device that is 
smuggled in or launched at close range?
    Mr. Spring. I would certainly hope we would never face that 
particular question as an either/or choice; that the United 
States would make a decision that we are so concerned about one 
avenue of attack that we are going to ignore another, or a 
series of others.
    What I am here to say is really two things. One is that the 
cold war policy of retaliation-based deterrents I think is 
being overwhelmed by the complexities of the multi-polar world. 
That includes asymmetric warfare capabilities. That includes 
different delivery means. That includes a different coalition 
dynamic. That includes a whole host of things that did not go 
into the underlying analysis of what produced strategic 
stability during the bipolar years of the cold war.
    Mr. Tierney. But let me interrupt--I am sorry.
    Mr. Spring. And so what I find very interesting here is 
that--and the conversation between the chairman and Mr. Flynn 
is in my judgment a very clear example of a damage limitation 
strategy. What they were going back and forth about, admittedly 
within the terrorist realm, not within the ballistic missile 
defense realm, is an element of a damage limitation strategy 
that I think is exactly the path that we should be on. I think 
that we are getting on the verge of forming a consensus.
    Mr. Welch. That we should be on damage limitation?
    Mr. Spring. We should be on a damage limitation strategy.
    Mr. Welch. There really are choices that you make, 
obviously budgetary choices. Or are you going to have your 
scientists and engineers and technologists working on plan A or 
plan B, and they can't be on both necessarily.
    If I understand Dr. Flynn, the likelihood of a threat from 
a terrorist's use of a nuclear device that is smuggled in, 
where there is no return address, is probably a higher threat, 
at least if I understand Dr. Flynn. The threat assessment on 
that would be higher than there would be a missile launch from 
Iran or North Korea.
    And, bottom line, I am just wondering what your view is. I 
mean, we don't live in a world where we can make this country 
guaranteed to be completely safe and never, ever have any 
possibility of a threat.
    Mr. Spring. I don't think that we are going to be able to 
ever answer that question precisely with perfect foresight. The 
fact of the matter is that the threat dynamic is dynamic 
enough. Let me put it in perspective. Let me put it in 
retrospect in this way: the United States, on the basis of an 
assessment that air defenses were not contributing very 
effectively to its primary cold war adversary, the Soviet 
Union, effectively dismantled the air defense system in this 
country. As we faced 9/11, we succumbed to the fallacy of the 
lesser excluded case. We didn't have the air defense 
capabilities to shoot down an airliner that was flying toward 
the World Trade Center in time because we basically dismantled 
that system.
    Mr. Welch. Let me interrupt for a second, because this is 
important. I mean, my colleague, Mr. Burton, raised the specter 
of madman being out there, and that is obviously a possibility. 
Somebody could do that. It is not all rationed. But, on the 
other hand, we can't defend against every mad-man everywhere. 
At least that is my view.
    I would just want to read something that was written by the 
CIA's point person, Mr. Walpole----
    Mr. Tierney. I would just ask you to try to wrap it up so 
the other Members can ask their questions, as well. We have one 
remaining question and a relatively short answer expected? We 
are going to have another round, as well.
    Mr. Welch. All right. I don't want to overstay my welcome 
here. I was just hitting pay dirt. You know what I mean?
    Mr. Tierney. Go for it.
    Mr. Welch. Well, here's the question. I think we are really 
in this conflict of the dilemma that we face, but what Mr. 
Walpole said was, ``In fact, we project in the coming years 
U.S. territories are probably more likely to be attacked with 
weapons of mass destruction from non-missile delivery means.'' 
My question is: do you agree with that? And if you do agree 
with that, wouldn't we then direct our resources toward meeting 
that threat first?
    Mr. Spring. Again, I think I would agree with it if all 
things were equal, but they are not all equal. In other words, 
the question is if you are going to leave yourself relatively 
vulnerable or completely vulnerable to a particular avenue of 
attack, then I think it will be exploited.
    Mr. Welch. OK. Thank you.
    Mr. Tierney. Thank you, Mr. Welch.
    Mr. Lynch, you are recognized for 5 minutes, more or less.
    Mr. Lynch. Thank you, Mr. Chairman. I want to thank the 
ranking member, as well.
    Let me just continue on that line of thought. We do have a 
situation right now where we have a group that has, in fact, 
declared war on the United States. We have Al Qaeda. They have 
declared war, they have demonstrated an ability to strike 
within this country. If you follow the pattern of activity of 
these terrorists, Al Qaeda and affiliates, we have seen train 
bombings in Mumbai, London, Madrid. We have seen the aviation-
related attacks on 9/11 and some attempts elsewhere out of 
London and out of Indonesia and the Philippines. So I am not 
asking for a crystal ball to think about what might happen as 
much as I am asking us to look at what is, in fact, happening 
right now around the world, in other countries. There is a 
pattern of conduct here that we don't have to guess. It is 
happening.
    All I am saying, I am a little surprised, Mr. Spring, that 
you think that it is more likely that, even though this conduct 
is happening now, you think that the unconventional threat is 
probably less than an intercontinental ballistic missile 
threat, and that puzzles me because this is a question of 
resource allocation for many of us, and especially for the 
appropriators, and so we see this stuff happening now with 
people who have declared war, and yet you think that the threat 
is greater for people who don't have the technology yet and 
have not declared hostile intent against the United States. I 
need to know how you reached that conclusion.
    Mr. Spring. Well, again, I reached the conclusion, as I 
stated earlier, because I don't think you can say that 
everything is equal in terms of the comprehensive assessment of 
the threat.
    I would also say this as it relates to resource allocation, 
because you are exactly right about that, is that if you look 
at the broad array--and let's just limit ourselves to the 
military capabilities, and certainly Mr. Flynn has made some 
important points with regard to homeland security, and we can 
re-address this, but let's confine ourselves to the military. 
If you include what we are doing with regard to the projection 
of our conventional capabilities, as well as what we do with 
regard to providing for the protection of U.S. assets here at 
home in the military budgets----
    Mr. Lynch. You are going pretty far afield of what I was 
talking about.
    Mr. Spring. But you----
    Mr. Tierney. I know what----
    Mr. Spring. But you are going to find----
    Mr. Lynch. Sir, you are eating up my time and you are not 
really answering the question.
    Mr. Spring. The fact of the matter is on resource 
allocation we are spending several times what we are spending 
on missile defense when you look at that broad array of even 
within the military budget.
    Mr. Lynch. Let me ask the other panelists, and, look, I 
appreciate everybody coming up here. Mr. Spring, even though we 
are at odds here on this one single point, I appreciate the 
work you are doing and trying to help the committee with its 
work.
    Let me ask the other panelists: on a question of 
proportionality, which is one of resource allocation for us, is 
our current approach here--and I just want to talk about the 
ICBM issue, the intercontinental. I am not talking about 
medium-range that Mr. Burton was talking about, because I agree 
with him on that. That is more of a theater issue, and 
protecting our troops, as well as the situation perhaps in 
Israel and medium-range. I am talking about the ICBM threat 
here. Is our allocation of resources, I have numbers here from 
GAO that says we spent about $120 billion on this ICBM defense 
system. Is that proportional to the threat right now, given 
everything else we have going on here. Mr. Cirincione?
    Mr. Cirincione. Let me start. Absolutely not. I believe 
that the ballistic missile defense program is the longest-
running scam in the history of the Department of Defense. This 
is an enormous waste of money. And if you leave this decision 
to the Joint Chiefs, they won't spend anything near what this 
administration is requesting. In fact, the last time the Joint 
Chiefs were asked about this, in 1993, the JRC, the Joint 
Requirements Council, headed up by Admiral Owens at the time 
recommended to then-President Clinton that we spend only $3 
billion a year on these kinds of programs, and, of that, 2.3 
should go to theater missile defense system--in other words, 
the weapons we were actually facing that are real threats to 
our troops and to our allies.
    This program is out of whack, and, Mr. Burton, if you are 
an advocate of continuing this program, I am going to tell you 
this budget is unsustainable. You have been here--some of the 
staff may not have been--when budgets don't go up all the time. 
They do come down, and this budget is heading for a crash, so 
we should be looking for how to budget a program that will have 
some sustainable technological base. Sorry.
    Mr. Lynch. No, that is OK.
    Mr. Chairman, is it OK to have Mr. Hildreth address that, 
as well?
    Mr. Tierney. It is.
    Mr. Lynch. Thank you, sir.
    Mr. Hildreth. You can ask, but you may not like the answer, 
because of the hat I wear. This is an issue of policy and 
resource prioritization, and because of where I am it is not 
something that I can really address. I can talk about some of 
the issues, but sort of taking that next step of what to do 
about it, it is not something that we can really do.
    Mr. Tierney. Thank you. Fair enough, Mr. Hildreth. We 
appreciate that.
    Mr. Yarmuth, you are recognized for 5 minutes.
    Mr. Yarmuth. Thank you, Mr. Chairman. I also think this has 
been a very valuable conversation. I appreciate all the 
testimony.
    I want to just continue the line of questioning. With $120 
billion having been spent on ABM technology, is there any way 
to assess, if you had unlimited funds, if we had unlimited 
funds, is there any way to project what the program would cost 
to reach some kind of successful conclusion?
    Mr. Cirincione. Such budget projections have been done in 
the past. During the Reagan years there were estimates ranging 
from $1 trillion to $2 trillion to deploy the programs, 
including the space-based weapons that were then under 
consideration. The ground-based systems are expensive, but 
still relatively cheap compared to the space-based weapons. 
This is as close as we have ever come to an unconstrained 
budget, and I would say we are no further along in our ability 
to actually hit a real enemy missile now than we were 20 years 
ago. Some advances in sensors and guidance systems, but not 
significantly beyond where we were in the 1980's.
    Mr. Yarmuth. So we really----
    Mr. Flynn. If I might just say that if you achieve that, 
you will create the incentive for the non-missile realm to be 
exploited, so that is just a key point.
    Mr. Yarmuth. That sounds like a very important point. You 
made the comment, Mr. Cirincione, that if you left it up to the 
Joint Chiefs of staff. What is the proper process for coming to 
the most logical decision and cost-effective decision? And the 
followup question, which I would like any of you to address, 
is: what do you see as the biggest threats to that process 
working properly?
    Mr. Cirincione. If it was up to me, the first thing I would 
do is restore a budget process that starts with an accurate 
threat assessment, and I would add to my testimony and Dr. 
Flynn's recommendations that you have a comprehensive threat 
assessment of what the most serious security threats are facing 
the United States and then have a budget allocation based on 
that. I believe that the No. 1 threat is nuclear terrorism, so 
I would be devoting significantly more funds to promote 
preventing that.
    The second is I would bring the Joint Chiefs into this 
process. History of these ballistic missile defense programs 
are the Joint Chiefs are happy to support a President's pet 
rock as long as the budget continues to expand, but as that 
budget contracts they want to spend the money on programs that 
they really care about, that meet their real conventional 
needs. That is the kind of budget crunch that is about to hit 
the budget overall and ballistic missile defense, in 
particular.
    I would devolve all these missile defense programs back 
into the services' budgets, let them weigh in, and see whether 
they would rather spend the money on jets, planes, tanks, and 
replacement for the equipment that has been chewed up in Iraq, 
or they want to continue with digging holes in the frozen 
tundra of Alaska.
    Mr. Flynn. I would just add to that it would clearly need 
to be broadened beyond the Joint Chiefs and incorporate the 
issues that are going to fall under the Department of Homeland 
Security realm, because the Customs Service plays an important 
role in some of these, the Domestic Nuclear Detection Office, 
the Coast Guard, and they are not even at the table with those 
discussions about resources. If you look at the overall 
investment we are making on the conventional military national 
security apparatus, my key, I guess, recommendation I am trying 
to advance here, particularly on Congress in its oversight 
function, is at some point in time a comparative analysis, both 
on the threat assessment but also on the oversight of these 
programs.
    When these programs percolate up to the Pentagon they go 
through an OMB reviewer who looks at them against other Defense 
priorities, but not against other competing Government 
entities' budgets to deal with a portion of this threat. That 
is a structural problem that I argue that Congress needs to get 
into so that we can start to balance these resources 
appropriately around this range of challenges of which this 
threat may materialize.
    Mr. Yarmuth. And my second question about what are the 
biggest threats to this process. I understand that you have a 
President who thinks that it is politically desirable to 
demagogue this issue and that is just some way that they could 
achieve political clout. I know that is a threat, but are there 
other threats that you see to having the right type of process?
    Mr. Flynn. I would put fundamentally here what I think has 
been echoed across here: we haven't got a good threat 
assessment. We haven't got a good intelligence estimate that 
looks at the non-missile threat with the missile threat.
    The work that I did with the Hart Rudman Commission before 
9/11, providing them a briefing--I shared with the staff here 
the actual presentation I gave to them in 2000--that work was 
basically to say your attention is in the aerospace. Your 
attention is beyond our borders, but there is a whole conduit 
by which things come to the United States, and commercial 
conveyances across our borders at sea and so forth, where there 
is virtually no understanding in the defense apparatus of how 
it works, and you need to draw experts who are outside that 
realm into this process.
    Mr. Yarmuth. So just one quick followup. No pun intended, 
but so we have had a silo approach to it where we 
compartmentalized the various threats and we don't consider 
them altogether? Is that fair?
    Mr. Flynn. Absolutely. This is the first hearing I am aware 
of--it may have been. I have been up here about 20 times since 
9/11--where you have traditional sort of national security side 
looking at an element that falls into my arena, which we call 
homeland security. I usually don't get invited to the National 
Security and Foreign Affairs Committees. I end up talking about 
Customs and so forth. That is a problem, because we are not 
seeing the totality of the threat.
    Mr. Spring. I would say this, too, which is that another 
threat to that is I don't think that we have yet fully arrived 
at a consensus-based strategy for dealing with the post cold 
war.
    Mr. Tierney. Thank you. And that is one of the reasons why 
this committee is actually having this hearing, Dr. Flynn, is 
that we have the unique positioning of being able to cut across 
different agencies in our oversight, so while Homeland Security 
may have an oversight committee, and armed services may have 
one, or whatever, they couldn't necessarily poach into each 
other's area. We have that jurisdiction that we are able to go 
across and combine, so I think there is some good work done 
here by Members and by the staff on making sure that we get 
that perspective.
    Mr. Van Hollen, you are recognized for 5 minutes.
    Mr. Van Hollen. Thank you, Mr. Chairman. Thank you for 
holding this series of hearings. And thank you to all of the 
members of the panel.
    We have had a lot of discussion about the nature of the 
threat and the severity of the threat, ballistic missile threat 
versus non-ballistic missile type threats. I think it is pretty 
clear, and obviously some differences of opinion, but clearly, 
in this day and age, given the capabilities other countries do 
have, that the non-ballistic missile threat now is much greater 
than any kind of ballistic missile threat, and the question is 
what happens in the future.
    As we have all talked about, this is largely a question of 
resource allocation, because you do have a limited amount of 
resources. How best are you going to spend the money of the 
American people on their defense? And one is assessing the 
nature of the threat, and the other is trying to determine 
whether what you are doing to beat that threat is actually 
going to work.
    I know we are going to have other hearings on this, but I 
do want to just raise this issue now because we are sort of 
talking about it in a way that, OK, we have these two different 
threats; what if we had a ballistic missile system that really 
worked. Even if it worked, our sense is that the threat from 
these other areas would be greater.
    Let me just note that in 2003, when Bush administration 
officials came before the Senate, they said that the 
interceptors would be capable of shooting down missiles with 90 
percent efficiency and that they would be put in place by 
September 2004. They made that statement despite the fact that 
a majority of tests that had been performed before that time 
had failed, and that none of the tests that were performed 
using realistic decoys and the kind of other systems that you 
would expect to actually be part of an attack were in place.
    Despite that testing record, the Bush administration 
essentially said by fiat, not by evidence but by fiat, we are 
going to deploy this thing--a very different approach than they 
have taken in many other systems.
    So once they said deploy it, the Pentagon, recognizing that 
the testing wasn't going so well, they didn't do additional 
tests until it was ``deployed.'' Since it has been deployed, 
you have a 50 percent test success rate in tests that are done, 
but, again, these are tests that have been dumbed down. They 
have been dumbed down so that now, yes, you can hit something 
with a 50 percent accuracy when you know in advance exactly 
what is coming, where it is coming from, and there are no 
decoys involved.
    So I guess my question to you all is--and it gets to how 
many resources you should put behind this at this particular 
point in time until you get a little bit of better sense of 
whether or not this would actually succeed in defeating an 
attack of the different scenarios that we are talking about.
    Mr. Cirincione, if you could lead off, and I would be 
interested in other's comments.
    Mr. Cirincione. Thank you, Mr. Congressman. Did I mention, 
Mr. Chairman, that I live in Maryland?
    Mr. Tierney. No, you didn't. I am glad you are covering the 
ground. [Laughter.]
    Mr. Cirincione. In Mr. Van Hollen's district.
    I believe the history of this program has been that the 
threats have been inflated, the capabilities have been 
inflated, so it is no wonder that the budgets have been 
inflated. I believe $12.3 billion, which is what the request is 
for this year, is completely out of proportion to both the 
threats we face and the capabilities we currently have. You 
have to restore some realism to the program.
    I am not saying we cut it out, but you bring it back down 
to reality. You do an accurate threat assessment and you 
restore operational testing, common sense, to the program. You 
don't buy it before you fly it. We have never in the history of 
the last 20 years had a realistic test of any of these systems, 
the kind you describe, that has flown up against what we would 
actually expect even a primitive country to deploy, like North 
Korea or Iran. The NIE indicates that any country that can fly 
an ICBM is going to be capable of deploying one of or perhaps 
all of six basic countermeasures, including chaff, balloons, 
other countermeasures that can defeat the system.
    We have never had a test of these weapons, and until we do 
how can the Congress possibly justify sticking these things in 
holes in Alaska or straining our alliance to try to convince 
Poland or the Czech Republic to deploy it? Fly before you buy, 
accurate threat assessments--that would be the rule of thumb. 
And then shift some of the money out of missile defense to the 
No. 1 priority that we have, which is making sure that the next 
9/11 attack is a non-nuclear 9/11. Let's prevent nuclear 
terrorism, the No. 1 threat facing the United States today.
    Mr. Van Hollen. Thank you.
    Mr. Spring. I am afraid that what you have described there 
is what I would call a cycle of failure. That is, if what we do 
if say we are going to reduce money for the testing until we 
can prove the system will work, is basically then you are de-
funding the testing that you acknowledge would need to go 
forward to make sure the system works.
    So I think that actually, if you want to improve 
technological progress, then you are going to have to make the 
investments in order to achieve that.
    Let me speak also just very briefly about fly before you 
buy. This is a system of systems approach that we are doing in 
missile defense. It means, because of the nature of the system, 
you have to build it in order to test it.
    We didn't do full constellation end-to-end testing of 
global positioning system satellite network; we started putting 
satellites in place in pieces, building it, fielding it, 
testing it concurrently. That is not the answer, admittedly, in 
all defense programs, but in systems of systems approaches it 
is an unavoidable requirement.
    Mr. Flynn. The only thing, it is almost surreal for me 
coming from the other end of the spectrum. Whatever you whack 
away, if you have scraps I will take them for the non-missile 
threat. If I could just point out, if I could just share this 
with you here, this is just a few pictures of the world that I 
operated in. Just so you have an idea, this was the longer one 
that is here.
    [Slide.]
    Mr. Flynn. This gives you a scenario of the environment 
that I worked through.
    This is what I gave the Hart Rudman. We have this guy, 
Osama bin Ladin, who did this to our embassy. If we move on to 
the next slide, my scenario would be to come out of the Port of 
Karachi, we have cut-and-sew shops there where you basically 
stuff containers with day labor. That container ends up in 
situations like these, local coastal barges loaded onto these 
inter-Asia ships that carry about 300 barges.
    They will go to a port like Hong Kong in a place like this 
that moved 5.5 million containers last year on a ship like this 
that carries about 5,000 or 6,000, up to 10,000, land in a 
place like Long Beach, move on rail into places like switch 
stations in Chicago where you have boxes like this, or the Port 
of New York and New Jersey, which is directly adjacent to a 
place like Newark International Airport, where New Jersey 
Turnpike runs directly adjacent to, which is also where our 
pipeline is at its head for New England, basically the throat 
for New England, as this shot illustrates.
    What I was basically making the case of here is that there 
is a world out there where you can have access to conveyances 
that really is about access to a truck driver who gives you 
hold of a container, and that is how containers get to the 
United States and then end up in Wal-Mart and on our shelves.
    That is the world that I operate in. And the amount of 
resources that we have dedicated to that problem is minuscule 
compared to the kind of resources we have obviously invested in 
dealing with ballistic missile threat. That is the kind of 
disconnect we are operating under.
    Mr. Tierney. And we will all sleep well for that. Thank 
you. The question is, do you sleep at night?
    Mr. Burton, would you like to add something onto the record 
and ask some questions?
    Mr. Burton. Yes, Mr. Chairman.
    Mr. Tierney. You are recognized for 5 minutes.
    Mr. Burton. I will try to be more brief than that, because 
we have votes coming up here in just a few minutes.
    I am going to enter this into the record, and I ask that we 
do this.
    Mr. Tierney. Without objection, so ordered.
    Mr. Burton. This is the ballistic missile defense system, 
and the Missile Defense Agency conducted 10 hit-to-kill 
intercepts in 2007, including 6 intercepts of the Aegis BMD 
element, 3 intercepts of the terminal high altitude area 
defense element, and an end-to-end intercept of a long-range 
target by the ground-based mid-course defense system in 
California.
    In addition to these flights in 2007, they conducted 
successful tests of the sea-based X-band radar command control 
battle management and communications system and other sensors, 
radars over multiple time zones.
    And since 2001, there have been 34 of 42 terminal and mid-
course hit-to-kill intercepts in atmosphere in space. Those 
aren't hypotheticals. They actually did that. And I understand 
in just the last year or so there has been even more successes.
    I agree, as I said before, with what you said. I think we 
are really vulnerable at our seaports and in our cities, and 
our borders are very porous, and I think we ought to have a 
more complete threat assessment, Mr. Chairman, where we find 
out really what we should be doing that we are not doing right 
now to make sure that the homeland is secure from some internal 
operation or something in our seaports.
    At the same time, though--and I know how vehemently you 
feel about this. I mean, you come across pretty strong--I still 
think that we need a very strong anti-missile system, and it 
should be effective in all three areas--intercontinental, 
short-term, and intermediate-distance missiles.
    With that, Mr. Chairman, since we are short on time I will 
just submit this for the record.
    Thank you, gentlemen, very, very much. We are going to be 
having votes in a minute, so I won't be with you, but thanks 
for your testimony. I really appreciate it.
    Mr. Tierney. Thank you very much, Mr. Burton.
    Mr. Burton, we are going to enter this on today's record. I 
have no problem with that. You might want to bring it back or 
have Mr. Shays bring it back for the next hearing when we will 
be talking about capabilities and things, as well, so it gets 
on both records for that, if that is the point you want to 
make.
    Mr. Burton. I will have Mr. Shays bring me back, too.
    Mr. Tierney. OK. I didn't want to make a statement on that. 
I understand that statement made those points, but I caution 
all of us to recognize what is a success and how it is defined. 
My experience with this thing over a dozen years or so has been 
that the agency tends to define success of a rather animated 
process where they simulate tests and then call it a success, 
where they use compartments or aspects of that program that are 
not the final operational aspect at all, but rather a 
prototype, which is not the one they are finally going to use, 
where the target is identified in advance.
    There are a lot of issues around what they call success and 
what has actually hit to kill, but when we get into that next 
week I think those are legitimate questions to ask. We should 
really define what has been successful and what hasn't, whether 
or not there has been realistic and operational testing on 
that, and whether or not, as the Congressional Budget Office 
suggests, we ought not go back to an evolutionary process where 
we actually test before we build.
    This is the crux of the thing. The whole DTO&E Office was 
designed to stop the Defense Department from running amuck, as 
they had with so many systems of building, only to find out 
that it didn't work and that we lost not only the money but the 
time. So even for those who believe this is a system worth 
pursuing, you would think that they would have some feeling for 
the idea of pursuing it in a logical sense that is economical 
so we can take care of all of our risks at the same time and 
not be exclusive, but focus on the testing where we don't lose 
time and money going down the path of actually building, 
deploying before they are actually ready to work.
    But we talk about our own system, and that is going to be 
for the next hearing. But, Mr. Hildreth, I want to talk to you 
a little bit about our tendency to over-estimate the capacity 
of others, particularly Iran and North Korea. From my 
understanding, and I have a window through the Intelligence 
Committee, as well as this committee's work and general open 
source knowledge on that, they still have issues about their 
propulsion systems; am I right?
    Mr. Hildreth. Yes.
    Mr. Tierney. And they still have serious issues about their 
guidance systems?
    Mr. Hildreth. You can raise questions about every single 
one of those elements of an ICBM, yes.
    Mr. Tierney. And neither one of them has perfected the way 
of compacting a payload in order to put it on a missile head so 
they can be sent somewhere; isn't that correct?
    Mr. Hildreth. Correct.
    Mr. Tierney. All right. And neither one of them has 
perfected the re-entry vehicle issues and challenges that are 
out there?
    Mr. Hildreth. To my knowledge they haven't tested that 
outside the laboratory. If they have done it inside the 
laboratory at all.
    Mr. Tierney. OK. And you write in your testimony something 
I think is very important, a need for a full system testing, 
just as we have never had that with our defensive operation 
with that, neither of these countries even come remotely close 
to fully testing a start-to-finish system, correct?
    Mr. Hildreth. I would argue so, yes.
    Mr. Tierney. And that is an enormous undertaking. Tell us a 
little bit about what that entails.
    Mr. Hildreth. Most of the discussion is touched on in the 
statement, but basically an ICBM is a complex set of 
technologies that need to be integrated together. Each one of 
those elements, those main elements, themselves, constitute a 
whole range of technical challenges that must be overcome. They 
need to be tested independently and proven to be successful. A 
lot of that stuff can be done internally inside labs.
    A lot of it, probably much of it could probably be done in 
ways that could be masked or hidden, but in the end even those 
major subsystems like re-entry vehicles or propulsion systems 
is not something you can buy a computer model for and say this 
is what we are doing and plug the numbers in and it shows that 
we are going to have success. You have to go out and test these 
things in a way that are, by a large measure, observable.
    You can't hide these things very well, especially the 
testing of RVs. I mean, you just can't gain the kind of 
experience you need to understand the dynamics that an RV will 
experience inside a laboratory. They don't make wind tunnels 
that mimic the same kind of stresses that an re-entry vehicle 
will experience when it is coming in at several velocities per 
second, and massive deceleration.
    You can't do that inside a lab. The only way you can do it 
is to actually go out and do it, and those things can't be 
hidden. You can't hide the fact that people will test a 
missile, and you may be able to shoot something up under the 
guise of a space launch vehicle, for example, and show that you 
have developed the capacity to shoot a missile and launch 
something into orbit, but it is a totally separate challenge 
and problem to have something re-enter the Earth's atmosphere 
and survive re-entry. It is not an easy thing. You can't get 
around that by not testing.
    So these are just things you don't see these other 
countries doing.
    Mr. Tierney. You make the point in your written testimony 
that some of the long-range ballistic missiles that we use to 
test intercept targets for our own ballistic missile defense 
program have failed to launch or operate in order to allow the 
test to proceed, and that is with 50 years of considerable U.S. 
long-range experience, which none of these, neither Iran or 
North Korea, or, for that matter, any of the other countries 
have on that. I think that is an excellent point.
    The other aspect that I don't have time to question you on 
is the whole idea of management organization of some 80,000 
people sometimes involved in a program as evolves on that and 
all the necessary coordination to overcome these challenges 
that doesn't exist.
    The bottom line of my point on this being that if we are 
serious about this, we have the time to do this right. For 
those who believe we can have an effective ballistic missile 
intercept, or whatever, we have the time to do it right, to 
test and then build as we get things that are accomplished, or 
whatever. That way if it doesn't work we don't have to spend 
all that money in that direction, but if it does work we can 
have the confidence to move to the next system on that.
    Testing, reliability, and confidence that it is reliable 
are as important to our defense system as it is to them when 
they think of whether or not they are going to use something 
offensive against us. If we go back and take the CBO's 
recommendation on that, it gives us the opportunity to allocate 
resources to testing and allocate resources to making this 
country confident again that we are doing everything that we 
can do, and relying on our resilience because we know that if 
something goes outside we will have done all we can do but we 
are a resilient Nation. Dr. Flynn has said in his written 
comments that we can move on from there.
    Mr. Welch, you have no further questions, and I understand 
the same with Mr. Yarmuth. Mr. Van Hollen, do you have any 
further questions?
    Mr. Van Hollen. No, sir.
    Mr. Tierney. Gentlemen, would any of you like to make a 
final remark? Is there something that we left unsaid that you 
would like to address?
    Mr. Cirincione. Just on your last point, sir. One of the 
justifications that Secretary Rumsfeld gave for exempting the 
anti-ballistic missile programs from normal operational testing 
process was the urgency of the threat. I believe that the 
threat is not urgent; that it is limited and developing rather 
slowly. So the two are related, the inaccurate threat 
assessment and thorough and realistic operational testing. If 
you get one right, it helps you get the other right, as well.
    Mr. Tierney. Thank you. Does any other person on the panel 
wish to----
    Mr. Flynn. Just the last point to say that the non-missile 
threat I firmly believe from my analysis is the higher 
probability threat, and it also is a vast distance behind what 
we have been trying to develop in the ballistic missile 
defense, so we need to be thinking about whatever we do in this 
area done in concert with the non-missiles, just to reinforce 
that point.
    Mr. Tierney. Thank you.
    Mr. Spring, would you like to say something?
    Mr. Spring. I would just say that I would like to urge the 
committee to focus on the requirements, the damage limitation 
strategy, and say why not missile defense among the other 
requirements for protecting the American people, our friends 
and allies, and forces afield.
    Mr. Tierney. I want to thank all of you. Mr. Hildreth, the 
work that CRS in not just this area but in many areas is very 
helpful to us. It is a great resource, and we use it on a 
number of different committees.
    All the other witnesses, thank you for your expertise, your 
frankness with us, and the way that you approach this. It is 
very, very helpful.
    Mr. Burton, thank you. I thought you brought a great 
perspective to it. We look forward to working with you.
    Other members of the committee, thank you for your input.
    I thank the staff for your work, as well. I think you got 
us off to a good start on a very serious issue that is 
enormously expensive and very, very important to our defense.
    With that, this hearing is closed. Thank you.
    [Whereupon, at 11:40 a.m., the subcommittee was adjourned.]

                                 <all>

</pre></body></html>
